■

CERTIFICATE OF SERVICE

I, Timothy C. Yoakum , hereby certify that 1
unbound and 40 copies bound are a petition for a
Writ of Certiorari in the case of TIMOTHY C.
YOAKUM V. SABRE GLBL, INCORPORATED, were
sent via United States Postal

Service to the

Supreme Court of the United States, and 3 copies
were sent via United States Postal Service by First
Class or better prepaid postage, on March 6, 2020:

Counsel for Respondent
Hunter Johnson, Esq.
Constangy, Brooks, Smith & Prophete, LLC
1201 Elm Street
Suite 2550
Dallas, TX 75270-2116
Phone: 214.646.3421
Email: hjohnson@constangy.com

All parties that are required to be served have been
served

V*

I further declare under penalty of perjury the
statements above are true and correct. This
Certificate of Service is executed on March 6, 2020.

Timothy C. Yoakum, pro se
1305 Glenfield Avenue
Dallas, TX 75224
Phone: 214.233.6271
Email: timvoakum66@gmail. com

